                U.S. Department of Agriculture

                   Office of Inspector General
                            Southwest Region




     Audit Report

Food and Nutrition Service
 Continued Monitoring of
EBT System Development
   State of New Mexico




                       Report No. 27099-18-Te
                                  March 2004
                   UNITED STATES DEPARTMENT OF AGRICULTURE
                                   OFFICE OF INSPECTOR GENERAL
                                        Southwest Region - Audit
                                     101 South Main Street, Suite 324
                                          Temple, Texas 76501
                                  TEL: 254-743-6565 FAX: 254-298-1373


DATE:         March 18, 2004

REPLY TO
ATTN OF:      27099-18-Te

SUBJECT:      Continued Monitoring of EBT System Development – State of New Mexico

TO:           William Ludwig, Regional Administrator
              Food and Nutrition Service
              Dallas, TX

ATTN:         Judy Barron, Regional Director
              Food Stamp Program


This report presents the results of our audit of New Mexico EBT System Development. Your response
to the official draft report, dated February 27, 2004, is included in its entirety as exhibit C with
excerpts and the Office of Inspector General’s (OIG) position incorporated into the Findings and
Recommendations section of the report.

Based on the response, management decisions have not been reached for the recommendations in the
audit report. It should be noted that the second part of Recommendation 8 (part 8(b)), was withdrawn
after further discussions with FNS management. The information needed to reach management
decisions is set forth in the OIG Position section after each recommendation. In accordance with
Departmental Regulation 1720-1, please furnish a reply within 60 days describing the corrective action
taken or planned and the timeframes for implementation for those recommendations for which a
management decision has not yet been reached. Please note that the regulation requires a management
decision to be reached for all recommendations within a maximum of 6 months from the date of report
issuance. Final action on the management decisions should be completed within 1 year of the date of
the management decisions to preclude being listed in the Department’s annual Performance and
Accountability Report.

We appreciate the courtesies and cooperation extended to us by members of your staff during the audit.
If you have any questions, please contact me at 254-743-6565, or have a member of your staff contact
Billy Engelke, Assistant Regional Inspector General, at 254-743-6570.



/S/TRM
TIMOTHY R. MILLIKEN
Regional Inspector General
 for Audit
Executive Summary
Food and Nutrition Service – Continued Monitoring of EBT System Development –
State of New Mexico (Report No. 27099-18-Te)

Results in Brief    The Electronic Benefits Transfer (EBT) system represents a more effective
                    method for delivery of Food Stamp Program (FSP) benefits to clients than
                    the food stamp coupons. We reviewed the New Mexico EBT System as part
                    of our ongoing effort to monitor the established EBT systems nationwide.
                    The overall objectives were to assess the established controls over the
                    EBT system and determine whether the controls were functioning as
                    designed.

                    The New Mexico Human Services Department (the State) did not have
                    adequate internal controls over its EBT operation. We found that:

                           •   FSP benefit authorizations valued at $555,521, for which an
                               EBT account had not been established, were not removed from
                               the EBT system.

                           •   EBT service fees were overpaid by $191,107, of which
                               50 percent, or $95,553, needs to be recovered.

                           •   EBT system access had deficiencies such as access conflicts and
                               multiple user identifications (ID).

                           •   The State did not have adequate policies or procedures for routine
                               oversight of EBT system activity, including reviewing
                               management reports, ensuring reconciliations were performed
                               daily, and resolving EBT Help Desk complaints.

                           •   Internal audits of EBT operations were not performed, and single
                               audit findings were not resolved.

                    We also found that the Food and Nutrition Service (FNS) needs to improve
                    its oversight of States that are not considered low risk. In addition,
                    FNS needs to make a $465,131 adjustment to the State Automated Standard
                    Application for Payments balance, due to an error in the account setup.

                    The State had initiated a reorganization of the EBT operation before our
                    audit began, and it is still in progress. After our onsite fieldwork, the
                    State began actions to correct deficiencies that were noted. (The specific
                    actions are outlined in Findings Nos. 1 through 5.)



USDA/OIG-A/27099-18-Te                                                                    Page i
Recommendations
In Brief
                    We made several recommendations for FNS to direct the State to establish
                    and modify internal controls. We recommend written controls to ensure that
                    (1) FSP benefit authorizations are removed from the EBT system when not
                    posted timely, including $555,521 noted during our field visit,
                    (2) EBT service fee invoices use the rates approved in the service agreement
                    and recover $95,553 in overpayments, (3) software changes are made to
                    correct EBT system access conflicts, (4) adequate policies are implemented
                    for daily EBT operations and routine oversight of the EBT system, and
                    (5) internal audits are performed. We also recommend that FNS adjust its
                    oversight procedures and conduct a followup review of the State
                    EBT operations in fiscal year (FY) 2004. Further, we recommend
                    FNS ensure that the State’s Automated Standard Application for Payments
                    balance is adjusted by $465,131.

Agency Response     In a letter dated February 27, 2004, FNS generally concurred with the
                    majority of the findings and recommendations. (See exhibit C.) FNS did not
                    concur with portions of recommendations 7 and 10 concerning manual
                    vouchers and A-133 audit report reviews at appropriate FNS management
                    levels.

OIG Position        We are unable to reach management decision on any of the
                    recommendations. The conditions needed to reach management decision are
                    set forth in the findings and recommendations section of the report.




USDA/OIG-A/27099-18-Te                                                                   Page ii
Abbreviations Used in This Report


the Act              The Food Stamp Act of 1977
ASAP                 Automated Standard Application for Payments
CAPS                 Card Activation and PIN Selection System
CFR                  Code of Federal Regulations
EBT                  Electronic Benefits Transfer
FNS                  Food and Nutrition Service
FNSRO                Food and Nutrition Service Regional Office
FSP                  Food Stamp Program
FY                   Fiscal Year
GLA                  Group Living Arrangement
ID                   Identification
ISD2                 Integrated Services Delivery System
OIG                  Office of Inspector General
OMB                  Office of Management and Budget
the State            New Mexico Human Services Department
PIN                  Personal Identification Number
POS                  Point of Sale
the processor        Citicorp Services, Inc.
USDA                 United States Department of Agriculture




USDA/OIG-A/27099-18-Te                                             Page iii
Table of Contents
Executive Summary .................................................................................................................................i


Abbreviations Used in This Report ......................................................................................................iii


Background and Objectives ................................................................................................................... 1


Findings and Recommendations............................................................................................................ 3

        Finding 1             Benefit Authorizations Not Posted.......................................................................... 3
                                  Recommendation No. 1.................................................................................... 4
                                  Recommendation No. 2.................................................................................... 5
                                  Recommendation No. 3.................................................................................... 5
        Finding 2             Overpayment Of EBT Service Fees ....................................................................... 6
                                  Recommendation No. 4.................................................................................... 7
        Finding 3             Controls Over EBT System Access Are Inadequate .............................................. 7
                                  Recommendation No. 5.................................................................................... 8
                                  Recommendation No. 6.................................................................................... 9
        Finding 4             Training, Written Procedures, And Monitoring Controls Needed ......................... 9
                                  Recommendation No. 7.................................................................................. 15
        Finding 5             No Internal Audits And Timely Resolution Of Single Audit Findings................ 18
                                  Recommendation No. 8.................................................................................. 19
                                  Recommendation No. 9.................................................................................. 20

    Section 2 FNS’ Oversight Of State Operations Needs Improvements ...................................... 21

        Finding 6              Oversight Not Adequate....................................................................................... 21
                                  Recommendation No. 10................................................................................ 22
                                  Recommendation No. 11................................................................................ 23
        Finding 7              Automated Standard Application For Payments Adjustment Not Made ............. 23
                                  Recommendation No. 12................................................................................ 24

Scope and Methodology........................................................................................................................ 25

Exhibit A – Summary of Monetary Results ....................................................................................... 26
Exhibit B – Audit Sites Visited ............................................................................................................ 27
Exhibit C – FNS’ Response to Draft Report ..................................................................................... 28
Glossary of Terms ................................................................................................................................. 34




USDA/OIG-A/27099-18-Te                                                                                                                     Page iv
Background and Objectives
Background          The United States Department of Agriculture’s (USDA) FNS administers the
                    FSP through a joint Federal-State partnership. The Federal Government
                    pays the full cost of client benefits and shares the cost to administer the
                    FSP with the States.      Congress funds the FSP through the direct
                    appropriation of funds. Through this joint Federal-State partnership, FNS is
                    pursuing EBT implementation by each State for the FSP nationwide.

                    The Food Stamp Act of 1977 (the Act), Public Law 88-525, authorized
                    FNS to experiment with alternative methods for the delivery of FSP benefits
                    using electronic data processing and computer technology. With this
                    authorization, FNS allowed State agencies to begin issuing FSP benefits
                    using an EBT system. The Personal Responsibility and Work Opportunity
                    Reconciliation Act of 1996, Public Law 104-193, required all States to
                    implement EBT systems before October 1, 2002.

                    The FSP assists low-income households by increasing their ability to
                    purchase food. Once a month, each participating household receives a
                    benefit allotment determined by the number of individuals in the family,
                    household income, and other related factors. The FSP clients use the
                    benefits to pay for food items at approved participating food retailers.

                    Before EBT, the basic method of FSP benefit delivery was the food stamp
                    coupon. EBT was developed to replace paper coupons with a computerized
                    version of the food benefit delivery process. Using plastic cards, much like
                    debit cards, along with a personal identification number (PIN), clients gain
                    access to their benefits through point-of-sale (POS) terminals located at
                    approved food retailers. The retailers are reimbursed for food purchased by
                    the client.

                    In FY 2002, FSP benefits were approximately $18 billion and increased to
                    approximately $21 billion for FY 2003. FSP benefits issued through
                    EBT totaled approximately $15 billion in FY 2002.

                    The FNS National Office is responsible for establishing overall program
                    regulations; EBT policy; approval of State EBT systems; and coordinating
                    with Federal, State, commercial, and private-interest groups. A national
                    office FSP account executive is assigned to work with each State.
                    FNS’ policy allows States the flexibility to establish controls that meet the
                    needs of the State; however, the State remains financially liable to the
                    Federal Government for actions of its EBT processor. FNS has established
                    approval rules for the delivery of FSP benefits using EBT systems in



USDA/OIG-A/27099-18-Te                                                                    Page 1
                    Title 7, Code of Federal Regulations (CFR), section 274.12, and for
                    approving    automated      data   processing   systems  in   Title 7,
                    CFR, section 277.18. FNS Regional Offices (FNSRO) serve as liaisons
                    between the States and the FNS National Office.

                    The State administers the EBT system and administers the service agreement
                    with Citicorp Services, Inc. (the processor), to operate the EBT system. The
                    service agreement was effective April 27, 1998, and can be renewed until
                    2006. The current service agreement expires on April 16, 2004.

  Objectives        The objectives of our audit were to provide an evaluation of the adequacy of
                    established controls and an assessment on whether controls functioned as
                    designed.




USDA/OIG-A/27099-18-Te                                                                   Page 2
Findings and Recommendations
Section 1.              State Internal Controls Need Improvement

                                          Our review of the State EBT operations disclosed several conditions that
                                          were not in accordance with Federal regulations. These conditions occurred
                                          because the State did not have adequate internal controls for its
                                          EBT operations. As a result, there is an increased risk of errors and fraud in
                                          the State’s EBT operations. In addition, we questioned State costs and
                                          accounting classifications of approximately $651,000.

                                          Federal regulations require State agencies to be responsible for efficiently
                                          and effectively administering programs by complying with the provisions of
                                          the Act, the regulations issued pursuant to the Act, and the FNS-approved
                                          State plan of operation.1

                                          The issues associated with each area we reviewed are outlined below in
                                          Findings Nos. 1 through 5.




Finding 1                                 Benefit Authorizations Not Posted

                                          The State EBT processor’s system contained FSP benefit authorizations
                                          from several previous years. If an EBT card is issued, the authorizations
                                          could be accessed.        As a result, we questioned $555,521 of
                                          FSP authorizations that were stored on the EBT system.

                                          The State sends clients’ authorizations for food stamp benefits to the
                                          EBT processor each night. The processor also receives notification of
                                          EBT cards issued to clients each day. The processor posts authorizations to
                                          accounts for which EBT cards have been issued.                The remaining
                                          authorizations are kept in a pending file on the EBT system. In addition to
                                          the daily authorizations, each month a file containing recurring
                                          authorizations for existing clients is sent to the processor. The recurring
                                          authorizations are posted to clients’ accounts on the effective date, which is
                                          scheduled during the first 20 days of each month based on clients’ identifier
                                          numbers.

                                          We obtained the pending file report as it appeared in July 2003 during our
                                          onsite fieldwork. We noted that in addition to the recurring monthly



1
    Title 7, CFR, part 276, section 276.1(a)(4), dated January 1, 2003.
USDA/OIG-A/27099-18-Te                                                                                           Page 3
                    authorizations, the pending file also contained hundreds of authorizations
                    dating back to January 1999. Excluding the recurring authorizations, the
                    amount of authorizations in the file from January 1999 through June 2003 was
                    $555,521.

                    During a review of the State’s reconciliation process in June 2000, FNS noted
                    that the State considers benefits issued when the client is authorized. As
                    stated above, the processor does not post benefits until an EBT card is issued,
                    which establishes the account on the EBT system and creates a liability.
                    EBT cards were not issued because clients did not complete the necessary
                    actions. FNS staff stated they had advised the State to purge the pending file
                    in the past. We agree that the State should have purged the pending file and
                    made any necessary adjustments to accounting records. We also believe that
                    the pending file should not contain any benefit authorizations more than
                    60 days old, as this is a reasonable amount of time for clients to be issued a
                    card.

                    We notified State officials of this condition in July 2003. In September 2003,
                    State officials advised us that this subject was being discussed with the
                    EBT processor.

Recommendation No. 1

                    Direct the State to determine which of the current authorizations needs to be
                    removed and researched, including the $555,521 identified above, and make
                    the appropriate accounting adjustments.

                    Agency Response. FNS concurs with the recommendation. The
                    existence of a pending file on the Morgan Chase EBT system is a system
                    design approved by FNS and in operation in more than one State. In this
                    region, FNS has no knowledge of any fraudulent activity as a result of
                    misuse of the pending file. Because of the State’s EBT system design, there
                    is no liability to the Federal Government until benefits are posted to and
                    made available in the clients’ accounts.

                    Because this will be a change in software, FNS is not sure of the time
                    required to accomplish these changes. We understand that the State has just
                    executed a 2-year contract extension with Morgan Chase that effectively
                    extends the current contract through mid-April 2006. If it is determined that
                    the programming changes requested under this recommendation are cost
                    prohibitive (used for less than a 2-year period), FNS will approach OIG and
                    ask for a reconsideration of this recommendation. This office will ensure
                    that the replacement contract, effective mid-April 2006, will not have this
                    design feature in it. By April 9, 2004, FNS will issue a letter, with a copy to
                    OIG, so directing the State.


USDA/OIG-A/27099-18-Te                                                                      Page 4
                    OIG Position. Even though the agency concurs with the recommendation,
                    the main emphasis of the recommendation was not addressed. To reach
                    management decision, we need documentation to show that the State has
                    determined which of the current authorizations needs to be removed,
                    including the $555,521 identified in this report, and that appropriate
                    accounting adjustments have been made.

Recommendation No. 2

                    Direct the State to establish written internal controls to ensure that
                    authorizations that do not have EBT cards issued are timely (for example,
                    within 60 days) removed from the pending file and researched.

                    Agency Response. FNS concurs with the recommendation. The
                    development of these written internal controls will be tied to the time lines
                    for Recommendation No. 1. By April 9, 2004, FNS will issue a letter, with a
                    copy to OIG, so directing the State.

                    OIG Position. The planned action for Recommendation No. 2 is not
                    contingent on Recommendation No. 1. To reach management decision, we
                    will need documentation showing that written internal controls have been
                    established to ensure that authorizations that do not have EBT cards issued
                    are timely removed from the pending file and researched.

Recommendation No. 3

                    Direct the State, in consultation with FNS, to analyze the authorization
                    process and determine if authorizations need to be sent to the processor
                    before an EBT card is issued to the client. If so, modify the process before
                    the next EBT contract is finalized.

                    Agency Response. FNS concurs with the recommendation. Even with
                    the latest and final 2-year extension on the State’s contract, combined with
                    the corrective actions under Recommendations Nos. 1 and 2, corrective
                    actions for Recommendation No. 3 will be applicable to the replacement
                    EBT contract only. It is not our intent to implement Recommendation No. 3
                    corrective actions on the current contract. By April 9, 2004, FNS will issue
                    a letter, with a copy to OIG, so directing the State.

                    OIG Position. We agree with the planned action; however, to reach
                    management decision, we will need a copy of the letter to the State.




USDA/OIG-A/27099-18-Te                                                                    Page 5
    Finding 2                         Overpayment Of EBT Service Fees

                                      The State approved EBT service invoices with rates per case2 that exceeded
                                      those approved in the service agreement with the processor. As a result, the
                                      State overpaid the processor $191,107 for the period of January 2002
                                      through May 2003.

                                      We reviewed the processor’s invoices for EBT services for FY 2003 and
                                      found that charges for rates per case were higher than the rates per case in
                                      the original service agreement and any amendments. For example, one of
                                      the original service agreement rates was $2.396 per case, while the rate used
                                      on the invoice was $2.535 per case.

                                      Our review of invoices found that higher rates than specified in the service
                                      agreement were charged on invoices dating back to January 2002. We
                                      calculated the total amount overpaid by the State for EBT services for
                                      January 2002 through May 2003 as $191,107. The overpayments calculated
                                      include only FSP fees. The table below shows the overpayments made by
                                      the State.

                                                                                FSP Overpayments
                                                   Invoice Period                                                      Amount
                                                   Jan – Sep 2002                                                                          $ 97,524
                                                   Oct – May 2003                                                                            93,583
                                               Total Amount Overpaid                                                                       $191,107

                                      The State was advised by OIG of the discrepancy in August 2003. State
                                      personnel were aware of the situation and had determined that the difference
                                      was the New Mexico gross receipts tax that the processor had added to each
                                      case. In September 2003, State personnel advised that they had discussed
                                      the issue with the processor and that the State’s legal staff is determining
                                      whether the State can pursue recoupment of the expenses above the original
                                      contract price.

                                      Although payment of the gross receipts tax is required by the State of New
                                      Mexico, we conclude the processor should have either processed an
                                      amendment to the service agreement for the State’s approval or absorbed the
                                      gross receipts tax. The cost limitation article of the service agreement states
                                      that these amounts are inclusive of New Mexico gross receipts tax, which
                                      must be paid by the contractor. Thus, any excess costs included in the
                                      invoices from the processor should not have been paid. State funds were
                                      used to pay the service fees. The State generally requests 50 percent

2
  Service fees are based on the number of households receiving program benefits. The processor bills the State for each EBT case that is processed. The
rate per case was stated in the original service agreement between the processor and the State.
USDA/OIG-A/27099-18-Te                                                                                                                         Page 6
                                          reimbursement of administrative costs from FNS;                     therefore,
                                          $95,553 (50 percent of $191,107) needs to be recovered.

Recommendation No. 4

                                          Take the necessary action to:
                                          (a) bill the State for $95,553 (or the applicable amount) in overpaid FSP fees
                                              from January 2002 to May 2003, and determine if other amounts need to
                                              be recovered for invoices approved after May 2003; and
                                          (b) establish written internal controls to ensure that future invoices comply
                                              with the approved fee schedule.

                                          Agency Response.

                                          4(a). FNS concurs with the recommendation. FNS will take the necessary
                                          action and bill the State for the applicable dollar amount.

                                          4(b). FNS concurs with the recommendation. By April 9, 2004, FNS will
                                          issue a letter, with a copy to OIG, so directing the State.

                                          OIG Position. We agree with the planned action; however, to reach
                                          management decision, we will need:
                                          (a) documentation of the bill to the State for the applicable overpaid
                                          FSP fees and documentation showing that the amount has been collected or
                                          established as an account receivable, and
                                          (b) a copy of the letter to the State and a proposed completion date of the
                                          directed action.




     Finding 3                            Controls Over EBT System Access Are Inadequate

                                          We determined that the State EBT system had deficiencies such as access
                                          conflicts and multiple user IDs. As a result, the EBT system has an
                                          increased risk for EBT system access fraud.

                                          Federal regulations require that the State agency shall ensure that
                                          EBT security requirements are established.3 Federal regulations also state
                                          administrative and operational procedures shall ensure that functions
                                          affecting an account balance are separated or dually controlled during
                                          processing. These functions may include, but are not limited to, the setup of
                                          accounts, transmittal of funds to and from accounts, and access to files to
                                          change account records. Further, the regulations provide that the State
                                          agency must utilize passwords, identity codes, or other security procedures.4

3
    Title 7, CFR, part 274, section 274.12(i)(3), revised January 1, 2003.
4
    Title 7, CFR, part 274, section 274.12(i)(3)(iv)(A) and (B), revised January 1, 2003.
USDA/OIG-A/27099-18-Te                                                                                           Page 7
                    Access Conflicts

                    We found that some employees had the capability to access EBT systems
                    that allow both the issuance of EBT benefits and EBT cards (access
                    conflict).

                    Update-access to the State FSP eligibility system (Integrated Services
                    Delivery System (ISD2)) is used to register a case before issuing the
                    EBT cards. The ISD2 system also is used to issue benefits. The Card
                    Activation and PIN Selection (CAPS) system is used to allow clients their
                    PINs during issuance of the EBT cards. Thus, employees having access
                    conflicts increase the risk of improper EBT benefits being issued.

                    Our analysis of the ISD2 system access capabilities for all CAPS users found
                    that 105 of the 121 CAPS users (87 percent) had access conflicts in the
                    ISD2 system.

                    State personnel told us that they were in the process of strengthening
                    controls over the employees that have the capability to issue EBT cards and
                    benefits. They further stated that a software change is needed to resolve the
                    issue, and they will pursue the software enhancement. In the short term,
                    each county office is being required to decrease the number of employees
                    with update access to both systems to three. Even when this is completed,
                    we determined that the number of employees with access conflicts would
                    still be almost 100 (3 employees x 33 county offices), compared to 105.

                    Multiple User IDs

                    Multiple user IDs is another area of EBT system access vulnerable to fraud.
                    Our review of active user files for June and July 2003 identified six multiple
                    IDs in June and five in July. State personnel advised us that they had
                    corrected the discrepancies since completion of our fieldwork and sent us
                    their active user ID employee and CAPS user lists for September 2003. The
                    State further advised that procedures for quarterly monitoring of continued
                    need of EBT system access had been implemented. However, as of
                    September 2003, there were still seven employees with multiple user IDs.

Recommendation No. 5

                    Direct the State to review all current EBT system users and correct any
                    multiple user IDs and access conflicts (employees that can issue EBT cards
                    should not be able to issue food stamp benefits) that exist. Strengthen
                    controls to monitor employees with access conflicts until the issue is
                    resolved.


USDA/OIG-A/27099-18-Te                                                                     Page 8
                    Agency Response. FNS concurs with the recommendation. By
                    April 9, 2004, FNS will issue a letter, with a copy to OIG, so directing the
                    State.

                    OIG Position. We agree with the planned action; however, to reach
                    management decision, we will need a copy of the letter to the State and a
                    proposed completion date of the directed action.

Recommendation No. 6

                    Direct the State to:
                    (a) make the necessary software changes to eliminate access conflicts, and
                    (b) establish control procedures to periodically monitor the list of
                    EBT system users for multiple users IDs and incompatible access.

                    Agency Response.

                    6(a). FNS concurs with the recommendation. By April 9, 2004, FNS will
                    issue a letter, with a copy to OIG, so directing the State.

                    6(b). FNS concurs with the recommendation. By April 9, 2004, FNS will
                    issue a letter, with a copy to OIG, so directing the State.

                    OIG Position. We agree with the planned action; however, to reach
                    management decision, we will need a copy of the letter to the State and a
                    proposed completion date of the directed action.




 Finding 4          Training, Written Procedures, And Monitoring Controls Needed

                    The State did not have adequate training, written procedures, and monitoring
                    controls, or in some cases did not follow existing procedures for its
                    EBT operations. The areas with discrepancies found during our review of
                    the State and county office EBT operations are discussed below.

                    Help Desk

                    The State Help Desk personnel did not always follow Help Desk procedures.
                    Help Desk personnel did not enter the circumstances for deactivating food
                    stamp clients’ EBT cards. In addition, there was no log maintained of
                    EBT cards returned to the State office or of cards destroyed. We also found
                    that the State staff did not have an adequate process for EBT Help Desk
                    complaint resolution.



USDA/OIG-A/27099-18-Te                                                                   Page 9
                                          The State’s internal procedures require Help Desk staff to enter the
                                          circumstances regarding requests to deactivate EBT cards. The internal
                                          procedures also require Help Desk staff to record the date a returned
                                          EBT card is received and destroyed. Also, Federal regulations require State
                                          agencies to follow up on complaints, resolve complaints and take action
                                          where warranted, and respond to the complainant on the disposition of the
                                          complaint.5

                                          We reviewed Help Desk transactions for May and June 2003 for EBT cards
                                          that had been deactivated because they were either returned or reported lost
                                          or stolen. Our analysis showed, in at least 40 out of 345 transactions, or
                                          approximately 12 percent, State personnel did not follow procedures for
                                          deactivating EBT cards. Not all of the State Help Desk staff were aware of
                                          internal procedures for deactivating EBT cards.

                                          In addition, the State office staff did not maintain a log of returned and
                                          destroyed EBT cards. We found that there was not an additional employee
                                          designated to either destroy or secure cards that could not be destroyed
                                          immediately in the absence of the designated employee.

                                          We also found that there was no documentation available for resolution of
                                          EBT complaints.       We reviewed EBT Help Desk complaints for
                                          April through June 2003. We found 30 of the 109 complaints (27 percent)
                                          had been open for more than 45 days after the complaint was recorded. In
                                          addition, 6 of the 30 complaints had been open for 60 to 100 days. The
                                          State does not have written policies that establish a timeframe for complaints
                                          to be resolved. Therefore, the State has no assurance that complaints are
                                          being resolved.

                                          In September 2003, the State staff advised that each area would begin
                                          reviewing its operating procedures and making needed changes, as part of an
                                          effort to improve financial management. The officials also stated the
                                          complaint system, used by Help Desk personnel and the main office in
                                          Santa Fe, New Mexico, would be made available to all the county offices to
                                          aid in complaint resolution.

                                          County Offices

                                          The State did not provide appropriate guidance or monitor county office
                                          oversight of EBT activities at group living arrangement (GLA) facilities. In
                                          addition, in one of the two county offices visited, an excessive number of
                                          county office personnel had access to unissued EBT cards. As a result, the
                                          State did not have assurance that FSP benefits were safeguarded.



5
    Title 7, CFR, part 271, section 271.6(a)(2), revised January 1, 2003.
USDA/OIG-A/27099-18-Te                                                                                         Page 10
                                          In addition to requiring State agencies to effectively administer programs,
                                          Federal regulations state that controls should ensure the security of unissued
                                          EBT cards.6

                                          We visited 2 of the State’s 33 county offices during our review. The county
                                          offices provide oversight of the GLA facilities. Drug and alcohol treatment
                                          rehabilitation and blind or disabled group homes are examples of
                                          GLA facilities. FSP clients may designate an authorized representative who
                                          uses the EBT cards to make food purchases on the clients’ behalf. We
                                          visited two GLA facilities to review oversight. Our review showed that
                                          there were no written procedures provided to the authorized representative
                                          for handling EBT benefits. Instructions for using EBT benefits were
                                          provided through phone conversations. At one GLA facility, we found that
                                          several residents were aware that all EBT cards had the same PIN.
                                          Therefore, by having access to this PIN, these residents could make
                                          purchases on any of the clients’ EBT cards. The county office staff did not
                                          review how EBT cards or PINs were stored. County office staff stated that
                                          they perform periodic reviews, but the reviews only consist of recertifying
                                          GLA residents.

                                          We also found that, at one county office, six clerks that issue EBT cards had
                                          access to the vault where unissued EBT cards were stored. The State did not
                                          provide any guidance to county offices or review employees’ need to access
                                          unissued EBT cards.

                                          Since the completion of our fieldwork, the State has taken action to improve
                                          oversight of GLA facilities. In September 2003, State officials advised that
                                          they had developed a list of all GLA facilities. The officials also stated that
                                          staff would participate in training and reviewing GLA facilities as well as
                                          providing written guidelines. In addition, the officials stated that access to
                                          unissued cards would be reviewed at all county offices.

                                          Contract Lapse

                                          The State operated without a signed service agreement for over 4 months.
                                          As a result, clients’ access to FSP benefits valued at $51.4 million could
                                          have been jeopardized had the processor discontinued EBT operational
                                          services.

                                          The service agreement between the State and the EBT processor lapsed on
                                          April 16, 2003. The amendment was signed on September 9, 2003. This
                                          was more than 4 months after the service agreement lapsed. We informed
                                          State officials during a meeting in July 2003 that we had not been provided a
                                          signed amendment for the service agreement. One State official explained


6
    Title 7, CFR, part 274, section 274.12(i)(3), revised January 1, 2003.
USDA/OIG-A/27099-18-Te                                                                                          Page 11
                    that the amendment was overlooked due to an excessive workload and
                    because the two parties were involved in contract negotiations.

                    FNS officials were aware of the issue. A letter dated May 2, 2003, from the
                    FNSRO to the State acknowledged that having no contract in place leaves
                    the State and FNS in a “very undesirable situation” since the EBT processor
                    would have no legal obligation to continue providing EBT services.
                    FNS gave approval of the service agreement extension in a letter to the State
                    dated June 24, 2003.

                    Additionally, the previous year’s amendment to the service agreement also
                    expired before being renewed. Amendment number three to the service
                    agreement was effective April 17, 2002, through April 16, 2003. The
                    amendment was not signed until July 2002. In this instance, negotiations for
                    extension of the service agreement began in February 2002.

                    The value of FSP benefits at risk for April 17, 2003, through
                    August 17, 2003, is $51,454,922. This amount was calculated using
                    FNS FSP benefit data as of July 25, 2003, for FY 2002. The calculation of
                    this amount is shown in the table below.

                  Total FSP Benefits For FY 2002                                      $154,364,768
                  Monthly Average For FY 2002 ($154,364,768/12 months)                  12,863,730
                  Number Of Months Operating With Lapsed Service Agreement                  4
                  Value Of FSP Benefits At Risk                                       $ 51,454,922

                    In September 2003, the State initiated action to ensure that service
                    agreement amendments are approved timely.

                    Dormant Accounts

                    The State was not monitoring the dormant accounts reports. Therefore, any
                    needed adjustments, such as clients no longer needing benefits, were not
                    made.

                    Clients’ EBT accounts are marked as inactive after there has been no debit
                    activity for at least 45 days. EBT accounts are marked as dormant after
                    there has been no activity for 90 days. The processor provided a daily report
                    of dormant accounts; however, the State was not reviewing this report. The
                    service agreement with the processor indicates that the State would use the
                    reports to contact clients and determine why benefits were not used.
                    Existing clients on the EBT system are given new benefit authorizations
                    each month as stated above in Finding No l. Therefore, benefits were
                    continually added to dormant accounts with no review for continued need.
                    We believe that monitoring dormant accounts is a part of efficient and
                    effective program administration as outlined at the beginning of this section.

USDA/OIG-A/27099-18-Te                                                                   Page 12
                                        During our fieldwork, the State staff informed us that they would begin to
                                        monitor the dormant accounts reports.

                                        Daily Reconciliation

                                        The State did not always perform required reconciliations of the EBT system
                                        on a daily basis. The reconciliation process ensures that the EBT system
                                        reflects the correct amounts for benefit issuance and retailer settlement. As a
                                        result, there is an increased risk of errors occurring in the reconciliation
                                        process.

                                        Federal regulations state that certain EBT reconciliations are to be performed
                                        on a daily basis.7 These reconciliations include individual account balances
                                        against household activity and total funds entering into, exiting from, and
                                        remaining in the EBT system each day.

                                        The State staff advised that there were no written procedures for the
                                        EBT reconciliation process and that only one person was trained in the
                                        process. In June 2000, FNS had advised the State that the reconciliation
                                        procedures should be updated, and additional employees needed to be
                                        trained in the reconciliation process. In September 2003, State officials
                                        informed us that an additional employee was being trained, and the
                                        procedures were in the process of being written.

                                        Staff Training

                                        Not all county office staffs have received EBT training manuals from the
                                        State EBT staff. Also, the State office EBT staff needs training and written
                                        procedures for EBT activities for the current processor.

                                        In addition to effective and efficient administration of programs, Federal
                                        regulations require State agencies to prepare and provide to staff responsible
                                        for administering the program written operating procedures.8 Further, the
                                        regulations require a description of the training program, including a listing
                                        of the organization conducting the training, participants in attendance, and
                                        how often the training is provided.9

                                        Our review at two county offices showed neither of the offices had been
                                        provided written procedures for issuance of EBT cards. We also found that
                                        the State EBT staff had not trained all county offices in EBT procedures
                                        such as card issuance and PIN selection. Approximately half of the
                                        33 county offices had not been trained on procedures for the current
                                        processor.


7
  Title 7, CFR, part 274, section 274.12(k)(1), revised January 1, 2003.
8
  Title 7, CFR, part 274, section 274.12(a), revised January 1, 2003.
9
  Title 7, CFR, part 272, section 272.3(a)(1)(x)(4), revised January 1, 2003.
USDA/OIG-A/27099-18-Te                                                                                        Page 13
                                          The State staff did not have written procedures for gathering data used to
                                          prepare the FNS-209, Status of Claims Against Households, report and the
                                          FNS-46, Issuance Reconciliation, report. We also determined that the
                                          State EBT staff did not have a process for monitoring EBT operations. In
                                          addition, State office staff did not always review management reports that
                                          were provided by the processor.

                                          In September 2003, State officials informed us that each area would begin
                                          reviewing its operating procedures and making needed changes as part of an
                                          effort to improve financial management. The officials also stated that they
                                          have trained nine county offices and will provide a manual for
                                          EBT operations in all county offices. A manual also is being developed that
                                          will contain procedures and job duties for the State office’s EBT staff.

                                          Manual Vouchers

                                          Manual vouchers were not completed to support retailers’ manual
                                          transactions. As a result, no manual vouchers were available for transactions
                                          averaging $32,500 per month.

                                          Federal regulations require that the State agency shall be responsible for the
                                          coordination and management of the EBT system.10 The service agreement
                                          and various other processor agreements require the completion of manual
                                          vouchers.

                                          After selecting a sample of vouchers for verification, we were informed that
                                          the retailers did not use the manual vouchers. State personnel also told us
                                          that manual vouchers were not completed or necessary because the manual
                                          voucher transactions are cleared electronically once the system is available.
                                          However, the service agreement, third-party processor agreement, retailer
                                          agreement, and the retailer EBT manual all contain provisions for processing
                                          manual vouchers. Neither the processor nor the retailers are following these
                                          procedures. We determined that the average monthly amount of manual
                                          voucher transactions for the months of December 2002 through May 2003
                                          was $32,494.

                                          In September 2003, a State official advised that, after speaking with an
                                          FNS official, they plan to contact some of the smaller retailers to determine
                                          if the retailers use manual vouchers.

                                          Coupon Control

                                          The State did not remove terminated employee access, or review current
                                          employees’ need for access to the bank vault where FSP coupons were


10
     Title 7, CFR, part 274, section 274.12(b)(2), revised January 1, 2003.
USDA/OIG-A/27099-18-Te                                                                                         Page 14
                                          stored. Also, the State did not follow internal procedures for inventorying
                                          FSP coupons.

                                          Federal regulations require States to ensure that coupons are secured and
                                          protected from loss or damage.11 State internal procedures state that an
                                          inventory is to be done on a monthly basis.

                                          The State staff did not update the list of employees authorized access to
                                          stored food stamp coupons. There were eight employees authorized to
                                          access the bank vault where FSP coupons were stored. We found that two
                                          of the eight employees did not need access to the stored coupons. One
                                          employee did not have EBT job duties, and the other was no longer a State
                                          employee.

                                          We also found that the State did not always inventory FSP coupons in the
                                          month they were received. The inventory of FSP coupons performed at the
                                          end of March 2003 did not include FSP coupons received during that month.
                                          The FSP coupons received in March were included in the June 2003
                                          inventory (3 months later).

                                          State officials informed us that they allowed multiple employees access to
                                          the bank vault for backup purposes. The State also said that, since our
                                          fieldwork, they have updated the list of employees authorized to access the
                                          vault.

Recommendation No. 7

                                          Direct the State to establish written internal controls to ensure that:

                                          (a) Help Desk functions are monitored (include controls to monitor logging
                                              of returned EBT cards and ensure that circumstances are noted when
                                              EBT cards are deactivated),
                                          (b) a complaint resolution process is established that includes time periods
                                              for the resolution,
                                          (c) access to unissued EBT cards is limited to the least number of personnel
                                              (such as one or two employees),
                                          (d) a review of controls over unissued cards is included in the management
                                              evaluations that are performed at county offices,
                                          (e) EBT activities at GLA facilities are monitored during facility reviews,
                                          (f) service agreements with the EBT processor are not allowed to expire,
                                          (g) dormant accounts are reviewed to determine if additional benefits should
                                              be added to the accounts,
                                          (h) appropriate reconciliations are performed on a daily basis,
                                          (i) training of the State and county office EBT staffs is completed (include a
                                              schedule of planned training for FY 2004),

11
     Title 7, CFR, part 274, section 274.7(b)(1), revised January 1, 2003.
USDA/OIG-A/27099-18-Te                                                                                              Page 15
                    (j) procedure manual is developed for monitoring State office
                        EBT operations,
                    (k) the processor monitors retailer compliance with signed agreements,
                        including preparation and maintenance of manual voucher
                        documentation, or modifies the documents to reflect alternate
                        procedures,
                    (l) proper access to stored FSP coupons is established. Include provisions
                        to ensure inventory is perpetual and for determining a continued need for
                        access to FSP coupons.

                    Agency Response.

                    7(a), 7(b), 7(d), 7(g), 7(i), 7(j), and 7(l). FNS concurs with these
                    recommendations. By April 9, 2004, FNS will issue a letter, with a copy to
                    OIG, so directing the State.

                    7(c). FNS partially concurs with the recommendation. FNS understands
                    that the OIG auditors had discussions with the State’s staff on this particular
                    issue, and the staff agreed with the recommendation to reduce the number of
                    employees that can access the unissued EBT card stock in any individual
                    office. The official draft report is recommending no more than one or two
                    employees in any given office have access to the unissued EBT card stock.
                    FNS is unaware of any breaches of security because a given State office may
                    currently have more than one or two employees (the recommendation by
                    OIG) having access to the unissued EBT card stock. FNS foresees potential
                    problems if any given State office has only one employee authorized to
                    access the card stock. If that employee is out of the office, cards do not get
                    issued. FNS foresees potential problems if as few as two employees in a
                    high volume office are authorized access to the card stock. There could be a
                    significant degradation of client services. Therefore, FNS will assist the
                    State in arriving at a number between OIG’s recommendation of no more
                    than one or two employees at any given office, and six employees that OIG
                    found in one office and deemed excessive. By April 9, 2004, FNS will issue
                    a letter, with a copy to OIG, so directing the State.

                    7(e). FNS concurs with the recommendation. However, the background
                    information provided in the report narrative leads FNS to believe that
                    OIG has erroneously arrived at this conclusion. Other than requiring the
                    State to include EBT activities whenever the State agency conducts onsite
                    reviews of GLAs, FNS is not sure what specific EBT activities OIG would
                    expect to be included in that onsite review. By April 9, 2004, FNS will issue
                    a letter, with a copy to OIG, so directing the State.

                    7(f). FNS concurs with the recommendation. FNS has been informed by the
                    State that it has already executed the necessary EBT contract amendment,
                    effective April 17, 2004.

USDA/OIG-A/27099-18-Te                                                                    Page 16
                    7(h). FNS partially concurs with the recommendation. FNS will remind the
                    State of this requirement. The office was unaware that the State agency was
                    not performing the necessary daily reconciliations of the EBT system. In
                    their conversations with the State agency, the staff reaffirmed that these
                    daily reconciliations were occurring and reported that the particular topic
                    was not raised with the State agency during OIG’s exit conference with
                    them. As a point of interest, FNS has never required any State agency to
                    reconcile each individual EBT account on a daily basis. That exercise would
                    be a workload issue well beyond the resources of any State agency. By
                    April 9, 2004, FNS will issue a letter, with a copy to OIG, so directing the
                    State.

                    7(k). FNS does not concur with the recommendation. There is no Federal
                    regulation that requires any retailer to execute a manual voucher. For most
                    retailers, manual vouchers are an option that can be used if the EBT system
                    is not operational. FNS has attempted to explain this EBT functionality to
                    the OIG auditors, and FNS perceives the official draft report to be reflective
                    of a misunderstanding on the part of the auditors. FNS will be elevating this
                    particular finding and recommendation to the national office for resolution.

                    OIG Position.

                    7(a), 7(b), 7(d), 7(g), 7(i), 7(j), and 7(l). We agree with the planned actions;
                    however, to reach management decisions, we will need a copy of the letter to
                    the State and proposed completion dates of the directed actions.

                    7(c). We agree with FNS’ alternate plan for the number of employees with
                    access to unissued EBT cards. To reach management decision, we need to
                    review the specific language in a plan for the county offices and the
                    proposed dates for completion.

                    7(e). The county office staff did not review how EBT cards or PINs were
                    stored at the GLA facilities. County office staff stated that they perform
                    periodic reviews, but the reviews only consist of recertifying GLA residents.
                    To reach management decision, we need a plan for monitoring
                    EBT activities at GLA facilities during facility reviews. The plan for county
                    office monitoring of GLA facilities should include at least the areas
                    mentioned above (storage of EBT card and PINs). The plan also should
                    include proposed completion date.

                    7(f). We agree with the planned action. To reach management decision, we
                    will need a copy of the EBT contract amendment.

                    7(h). The State staff advised that there were no written procedures for the
                    EBT reconciliation process and that only one person was trained in the
                    process. When that employee was not on duty, the reconciliations were not
                    performed. In September 2003, State officials informed OIG that an
USDA/OIG-A/27099-18-Te                                                                     Page 17
                                     additional employee was being trained, and the procedures were in the
                                     process of being written. To reach management decision, we need
                                     documentation to show the State has established written procedures for the
                                     necessary daily reconciliations to ensure they are performed. We also will
                                     need the proposed completion date for this action.

                                     7(k). Federal regulations require that the State agency shall be responsible
                                     for the coordination and management of the EBT system. The service
                                     agreement and various other processor agreements require the completion of
                                     manual vouchers. We believe that the State should ensure that retailers
                                     comply with the agreements that each retailer has signed with the
                                     EBT processor. The agreements state that manual vouchers will be used if
                                     the EBT system is not operational.




     Finding 5                       No Internal Audits And Timely Resolution Of Single Audit
                                     Findings

                                     The State was not performing internal audits of its EBT operations or
                                     ensuring timely resolutions of single audit findings. The State did not have
                                     adequate controls for internal audits and single audit corrective-action plans.
                                     As a result, there is an increased risk of errors and fraud in the
                                     State’s EBT operations.

                                     Federal regulations require States to be responsible for the coordination and
                                     management of the EBT system.12 Systems for resolution must provide a
                                     means to assure timely responses to audit reports.13 Further, the auditee
                                     shall ensure that the A-133 Single Audits are properly performed and
                                     submitted when due. The audit shall be completed along with data
                                     collection within the earlier of 30 days after receipt of auditor’s report, or
                                     9 months after the end of the audit period, unless a longer period is agreed to
                                     in advance by the cognizant or oversight agency.14

                                     The State’s annual single audits cover the period ending June 30. At the
                                     time our fieldwork was completed, The State’s FY 2002 Single Audit Report
                                     was 7 months late. The FY 2002 Single Audit Report was due March 2003,
                                     9 months after the end of the audit period. The FY 2001 Single Audit
                                     Report was submitted 5 months after it was due. The State had not
                                     contacted the cognizant agency to advise that the FY 2002 Single Audit
                                     Report would be late and request an extension, as required by Federal
                                     regulation.15


12
   Title 7, CFR, part 274, section 274.12(b)(2), revised January 1, 2003.
13
   Office of Management and Budget (OMB) Circular A-50, Audit Followup, revised September 29, 1982.
14
   OMB Circular A-133, Audits of States, Local Governments, and Nonprofit Organizations, revised June 27, 2003.
15
   OBM Circular A-133, Audit of States, Local Governments, and Nonprofit Organizations, revised June 27, 2003.
USDA/OIG-A/27099-18-Te                                                                                            Page 18
                    Our review of the latest available single audit report (FY 2001) revealed that
                    the State had 42 repeat findings and 17 new ones; 5 were EBT related. We
                    found that not all corrective-action milestone dates had been met.

                    For example, the FY 2001 single audit found that the accounts payable
                    balance did not agree with outstanding EBT issuance in the cash account.
                    EBT balances that were outstanding greater than 1 year had not been
                    expunged. The corrective-action plan had 10 milestone dates that the
                    State had agreed to meet.

                    The State official responsible for corrective action advised that the
                    vouchers-payable problem had been resolved. The official was not sure if
                    other areas of the corrective-action plan had been resolved, although the
                    corrective-action plan designated the official as the responsible party. One
                    State official informed us that the current staff had inherited audit issues
                    from the previous administrations, and, due to the number of issues,
                    resolution has been difficult.

                    In addition, the State had not performed internal audits or other reviews of
                    EBT operations. The processor had an audit of its operations as required by
                    Federal regulations. We believe that internal reviews are part of effective
                    and efficient management. As a result, there was no assurance that adequate
                    controls had been established or were being followed.

                    The FY 2001 Single Audit performed by an independent audit firm found
                    that many of the reportable conditions and instances of noncompliance
                    identified during current and prior years’ audits, as well as reviews, resulted
                    from a breakdown of established control procedures. The audit report also
                    stated that, historically, the State’s internal audit department investigates
                    situations only when notified of problems and not on a proactive basis. The
                    report also found that the State was not a low-risk auditee.

                    At the completion of our onsite fieldwork, the State began an overall risk
                    assessment and completed an audit plan for FY 2003, which includes audits
                    of EBT operations.

Recommendation No. 8

                    Direct the State to establish written internal controls that ensure EBT
                    corrective-action plan milestones are met.

                    Agency Response.

                    FNS concurs with the recommendation and will direct the State to develop
                    this control.


USDA/OIG-A/27099-18-Te                                                                    Page 19
                    OIG Position. We agree with the planned action to direct the State to
                    develop written internal controls to ensure that corrective-action plan
                    milestones are met. To reach management decision, we will need a copy of
                    the letter to the State and a proposed completion date.

Recommendation No. 9

                    Review the State’s schedule of planned internal audits to determine if
                    planned EBT audits are appropriate, considering the most recent
                    A-133 Single Audit findings.

                    Agency Response. FNS partially concurs with the recommendation. We
                    are obtaining a schedule of planned internal audits. At this time, FNS is
                    unable to determine the adequacy of the State’s audit plan because we have
                    just received the FY 2001 A-133 audit. In addition, the FY 2002
                    A-133 audit reflects no findings for the FSP.

                    OIG Position. We agree with the planned action to review the State’s
                    schedule of planned audits, considering recent A-133 Single Audit findings.
                    To reach management decision we need documentation of the planned
                    review with a proposed completion date.




USDA/OIG-A/27099-18-Te                                                                 Page 20
Section 2 FNS’ Oversight Of State Operations Needs Improvements


                                       We determined that FNS’ oversight of State EBT operations was not
                                       adequate for New Mexico. This occurred because FNS did not have internal
                                       controls to ensure that the normal oversight procedures were modified for
                                       States that are not low risk. In addition, FNS did not have controls to ensure
                                       that an EBT account adjustment was made. As a result (1) there were
                                       numerous deficiencies in the State’s EBT operations, and (2) we questioned
                                       $465,131 that was overstated in the funds available for New Mexico
                                       FSP benefits.




     Finding 6                        Oversight Not Adequate

                                       FNS’ oversight of the State was not adequate considering the history of
                                       operational problems. Consequently, the State’s EBT operations had an
                                       increased risk of errors and fraud occurring.

                                       Departmental regulations state that agencies are responsible for assessing the
                                       risks that may impair program operations on, at least, an annual basis. In
                                       addition, the agency is to periodically assess the adequacy of internal
                                       controls for programs, commensurate with the level of risk.16

                                       FNS’ EBT staff relies on calls from clients and retailers as an indication of
                                       problems with the State’s operations. The EBT staff did not perform routine
                                       visits to monitor daily EBT operations. The FNS Financial Management
                                       staff had not visited the State since June 2002 when they performed an audit
                                       of the reconciliation process.

                                       After reviewing the State’s EBT operations, we determined that the State did
                                       not have adequate internal controls. (See section 1.) For example, the
                                       EBT processor did not expunge aged benefits for 2 years, and the State did
                                       not research and remove benefit authorizations from a pending file used for
                                       storing benefits for which an EBT card had not been issued. The State also
                                       allowed the EBT contract to lapse by not ensuring that an amendment
                                       extending the contract was signed in a timely manner. (See Finding No. 4.)

                                       Also, New Mexico’s most recently published A-133 Single Audit indicated
                                       42 repeat findings and 17 new findings, and indicated that the State was not
                                       a low-risk auditee. There were five repeat findings for EBT-related issues.
                                       The State was not meeting corrective-action milestone dates, and FNS was
                                       not monitoring the State’s resolution progress. OIG acknowledges that
16
     USDA Departmental Regulation 1110-2, dated February 23, 1999.
USDA/OIG-A/27099-18-Te                                                                                      Page 21
                                          FNS is not the cognizant agency for ensuring that A-133 findings are
                                          resolved; however, FNS does have the overall responsibility of using
                                          whatever information is available to ensure efficiency and effectiveness of
                                          the FSP. This includes, but is not limited to, information received from
                                          Performance Reporting System reviews, Federal reviews, audits,
                                          investigations, corrective-action plans, financial management reviews, and
                                          the public.17

Recommendation No. 10

                                          Establish written internal controls to ensure that:
                                          (a) oversight of State EBT operations is appropriate (such as the use of
                                              historical information and risk assessments), and
                                          (b) State A-133 Single Audit Reports are reviewed at the appropriate levels
                                              of FNS management.

                                          Agency Response.

                                          10(a). FNS partially concurs with the recommendation. This office will
                                          conduct an onsite EBT review in New Mexico during FY 2004. However,
                                          concerning FNS onsite reviews, these will be made based on the availability
                                          of travel funds. These reviews were unplanned activities for FY 2004, and
                                          FNS has recently been informed by management that travel funds may not
                                          be available to cover all travel needs.

                                          10(b). FNS does not concur with the recommendation. FNS already has a
                                          process in place to review single audits. However, the adequacy of that
                                          process is beyond the scope of this audit. We will be elevating this
                                          particular finding and recommendation to our national office.

                                          OIG Position.

                                          10(a). The FNS response did not address establishing written internal
                                          controls for oversight appropriate to the State (such as the use of historical
                                          information and risk assessments). To reach management decision, we need
                                          a plan to establish written internal controls and the proposed completion
                                          date.

                                          10(b). During our fieldwork at the FNS Regional Office, we determined that
                                          the A-133 Single Audits were not reviewed by the EBT Regional
                                          Coordinator. We continue to believe that the A-133 Single Audit reports
                                          should be reviewed at the appropriate management level. To reach
                                          management decision we need a plan, containing a proposed completion
                                          date, to ensure that A-133 Single Audit reports are reviewed at the
                                          appropriate level to ensure the resolution of EBT findings.

17
     Title 7, CFR, part 276, section 276.4, revised January 1, 2001.
USDA/OIG-A/27099-18-Te                                                                                         Page 22
Recommendation No. 11

                                       Perform a followup review of the State’s EBT operations in FY 2004 and
                                       provide the results to OIG for information purposes. Include the areas
                                       mentioned in the findings in this report as part of the review.

                                       Agency Response. FNS partially concurs with the recommendation. As
                                       mentioned in the response to Recommendation No. 10(a), this office will
                                       conduct an onsite review in New Mexico during FY 2004. However, as
                                       discussed elsewhere in the responses to this official draft report, the onsite
                                       review may or may not include all of the areas mentioned in the findings and
                                       recommendations of this official draft report. Please see FNS’ comments
                                       under Recommendation No. 10(a) concerning the availability of travel funds
                                       for unplanned activities.

                                       OIG Position. To reach management decision, we need a plan for the
                                       onsite review and a proposed completion date.




     Finding 7                        Automated Standard Application For Payments Adjustment Not
                                      Made

                                       The Automated Standard Application for Payments (ASAP) account for
                                       New Mexico needed an adjustment that was not made. The ASAP balance
                                       for the State needs to be reduced by $465,131 to correct an error made
                                       during the account setup, resulting in an incorrect balance.

                                       Departmental regulations state that agencies are to provide reasonable
                                       assurance that revenues and expenditures are properly recorded.18

                                       ASAP is an electronic payment system that allows States to draw Federal
                                       FSP funds from an account that is preauthorized by the FNS. States request
                                       payment for FSP transactions by making ASAP requests each day. When
                                       the State changed to its current processor, an error occurred in the account
                                       setup. The account was established with an incorrect balance. At the time
                                       of our onsite fieldwork, FNS had not made the ASAP adjustment for the
                                       error that occurred in January 1999. The FNSRO had notified the
                                       FNS National Office of the discrepancy and is still waiting for the
                                       adjustment to be made. The potential for error in the State’s reconciliation
                                       process is increased due to the recurring adjustment (the $465,131 account
                                       setup error) that is made by the State each day. As stated above in
                                       Finding No. 4, the State did not have written reconciliation procedures, and
18
     USDA Departmental Regulation 1110-2, dated February 23, 1999.
USDA/OIG-A/27099-18-Te                                                                                      Page 23
                    there was only one employee trained in the process, increasing the potential
                    for error.

Recommendation No. 12

                    Take necessary action to ensure that adjustments to New Mexico’s
                    ASAP account balance are completed, including the $465,131 identified
                    above.

                    Agency Response. FNS concurs with the recommendation. FNS will
                    soon complete the adjustment in the amount of $465,131.

                    OIG Position. We agree with the planned action; however, to reach
                    management decision, we need documentation showing the adjustment has
                    been made.




USDA/OIG-A/27099-18-Te                                                                  Page 24
Scope and Methodology
                    As of May 2003, 47 States, the District of Columbia, the Virgin Islands, and
                    Puerto Rico used EBT systems to deliver FSP benefits. We selected New
                    Mexico for review because there had not been an audit performed since the
                    State changed processors in April 1998.          New Mexico delivered
                    approximately $167 million in FSP benefits from October 2002 through
                    August 2003. Our fieldwork was performed during the period May through
                    October 2003 and included coverage of FY 2003, and prior years as deemed
                    necessary, to develop our findings.

                    Audit coverage included the FNSRO in Dallas, Texas; State office
                    EBT operations in Santa Fe and Albuquerque, New Mexico; two county
                    offices; and two GLA facilities in Albuquerque, New Mexico. We selected
                    the two county offices based on the number of FSP cases processed. The two
                    GLA facilities were monitored by the two selected county offices. For
                    FY 2003, we reviewed controls and procedures established by FNS, the State,
                    and the processor, including drawdown and settlement, authorization and
                    logon access to the EBT system, reconciliation, conversion of EBT benefits to
                    food stamp coupons, routine oversight, expungement reporting, and
                    recoupment of benefits.

                    The audit was conducted in accordance with Government Auditing Standards
                    issued by the Comptroller General of the United States. Accordingly, the
                    audit included such tests of program and accounting records as considered
                    necessary to meet the audit objectives.

                    To accomplish our objectives and support our findings, we performed the
                    following procedures:

                         •   We reviewed Federal regulations and State policies and procedures
                             governing the FSP and EBT operations.
                         •   We reviewed the results of the most recent State audit performed
                             under the Single Audit Act to identify issues concerning EBT.
                         •   We relied on documentary, analytical, and testimonial evidence to
                             determine the policies and procedures the State uses for
                             EBT operations, such as reconciliation, recoupment, expungement,
                             and logon access, to identify any issues of concern.
                         •   We observed EBT activities such as EBT card issuance, coupon
                             inventory, and EBT card storage at GLA facilities.

                    In addition to the above mentioned, we also discussed any concerns regarding
                    the operations of the FSP with the FNSRO and State personnel.


USDA/OIG-A/27099-18-Te                                                                   Page 25
Exhibit A – Summary of Monetary Results
                                                               Exhibit A – Page 1 of 1



  FINDING     RECOMMENDATION     DESCRIPTION        AMOUNT        CATEGORY
  NUMBER          NUMBER
                                     Benefit                      Accounting
                                  Authorizations                 Classification
     1                    1        Not Posted        $ 555,521       Error
                                                                Questioned Cost,
                                 Overpayment Of                    Recovery
     2                    4      EBT Service Fees        95,553 Recommended
                                     ASAP                         Accounting
                                   Adjustment                    Classification
     7                   12         Not Made            465,131      Error
                         Total                       $1,116,205




USDA/OIG-A/27099-18-Te                                                      Page 26
Exhibit B – Audit Sites Visited
                                                                    Exhibit B– Page 1 of 1




            TYPE                    ENTITY                  LOCATION
  Federal                  FNS Regional Office       Dallas, TX
                           New Mexico Human
  State                    Services Department       Santa Fe, NM
                           New Mexico Income
  State                    Support Division          Albuquerque, NM
  County                   Southwest County Office   Albuquerque, NM
  County                   Southeast County Office   Albuquerque, NM
  Group Living Arrangement Salvation Army            Albuquerque, NM
  Group Living Arrangement Philadelphia Ministries   Albuquerque, NM




USDA/OIG-A/27099-18-Te                                                          Page 27
Exhibit C – FNS’         Response to Draft Report
                                                    Exhibit C – Page 1 of 6




USDA/OIG-A/27099-18-Te                                           Page 28
                         Exhibit C – Page 2 of 6




USDA/OIG-A/27099-18-Te                Page 29
                         Exhibit C – Page 3 of 6




USDA/OIG-A/27099-18-Te                Page 30
                         Exhibit C – Page 4 of 6




USDA/OIG-A/27099-18-Te                Page 31
                         Exhibit C – Page 5 of 6




USDA/OIG-A/27099-18-Te                Page 32
                         Exhibit C – Page 6 of 6




USDA/OIG-A/27099-18-Te                Page 33
Glossary of Terms

Automated Standard Application Payments - ASAP is a system developed jointly by the Federal
Reserve Board of Richmond and the U.S. Department of the Treasury. The system serves as the
centralized requesting point for Federal fund payments.

Expungement – The process of removing the remaining balance of FSP benefits from any EBT system
account that has not been accessed by the household in 1 year. Households lose all rights to expunged
benefits. Expungement is required by Title 7, CFR, section 274.12(f)(7).

Group Living Arrangement – Examples of GLAs are drug/alcohol treatment rehabilitation programs,
or group homes for blind or disabled residents. We were concerned with their activities as they relate
to EBT operations.

Manual Transaction – A nonautomated transaction whereby a retailer completes a manual voucher
(paper sales draft), and obtains the cardholder signature and a telephone authorization code (number)
from the EBT processor. Manual transactions are used in cases of damaged EBT benefit cards,
inoperable POS equipment, or by retailers where POS equipment has not been installed.

Integrated Services Delivery System – ISD2 is the State’s eligibility system used by New Mexico for
issuing food stamp benefits.




USDA/OIG-A/27099-18-Te                                                                        Page 34
Informational copies of this report have been distributed to:

Regional Administrator, FNS Dallas, TX                          (6)
Agency Liaison Officer                                          (3)
EBT Regional Coordinator, FNS, Dallas, TX                       (1)
OCFO                                                            (1)
OCFO, PAD Audit Liaison Officer                                 (1)
GAO                                                             (2)
OMB                                                             (1)
